                                                                          23



                    FOR DIRECTOR~

SUBJECT: Report     D-2008-058~ ;;'Report on Security Controls
         Fighter Classified Technology~'~ March 6, 2008

       We are withdra\ving the subject report. After report issuance, we determined that
we did not have sufficient appropriate evidence to support     report conclusion that DoD
advanced aviation and \veapons technology, including classified information, at BAE
Systems facilities or contained in      Systems information technology systems may
have been compromised or is at risk for unauthorized access.

        In accordance      generally accepted government auditing standards, Vile are
notifying you ofthe report rescission so that you do not continue to rely on the
unsupported conclusion. The audit report has been removed from our vvebsite.

         We have determined that additional audit \vork \\till not be done to reissue the
report \\Tjth revised findings or conclusions because the Defense Security Service (DSS)
has agreed to take appropriate corrective actions to better monitor Defense contractors.
Your agency has agreed to obtain and review all reports required by the Special Security
Agreement and the Export Compliance Addendum and to use that information to monitor
     Systems' compliance           the Special Security Agreement.

        Members of your staff stated that DSS is reassessing its records management
program to ensure that it is current and compliance with Government regulations and
standards and that DSS        initiate a personnel recruitment action for an agency Federal
records management professional to upgrade its system to current Government and
technology standards. DSS actions, once fully implemented~ should enhance its ability to
effectively monitor Defense contractors.

       If you have any questions, please contact me at (703) 604-8905.




                                     Pa      ranetto
                          Principal Assistant Inspector General
                                      for Auditing

cc:
Distribution
Distribution List

Under Secretary of Defense for Acquisition~ Technology~ and Logistics
   Deputy Under Secretary of Defense (Industrial Policy)
   Deputy Under Secretary of Defense (International Technology Security)
   Director~ Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
   Deputy Under Secretary of Defense (Technology Security Policy and National
     Disclosure Policy)
Under Secretary of Defense for Intelligence
   Assistant to the Secretary of Defense (Intelligence Oversight)
General Counsel of the Department of Defense
   Deputy General Counsel for Intelligence
Director~ Program Analysis and Evaluation
Naval Inspector General
Assistant Secretary ofthe Air Force (Financial Management and Comptroller)
Director, National Security Agency
Director, Defense Security Service
Director, Defense Contract Management Agency
Director, Defense Technology Security Administration
Program Executive Officer, Joint Strike Fighter Program Office
Inspector General~ Defense Threat Reduction Agency
Office of Management and Budget
Director, National Archives and Records Administration
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense~ Committee on Appropriations
House Committee on Armed Services
House Committee on Intelligence
House Committee on International Relations
House Committee on Oversight and Government Reform
House Subcommittee on Government Management~ Organization~ and Procurement~
   Committee on Oversight and Government Reform
House Subcommittee on Information Policy~ Census and National Archives, Committee
   on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs~ Committee on Oversight
   and Government Reform
